U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 23, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Axon Enterprise, Inc. v. Federal Trade Commission, et al,
S.Ct. No. 21-86
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 20,
2021, and placed on the docket on July 22, 2021. The government’s response is due on August
23, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 22, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0086
AXON ENTERPRISE, INC.
FEDERAL TRADE COMMISSION, ET AL.

PAUL D. CLEMENT
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000
PAUL.CLEMENT@KIRKLAND.COM
LAWRENCE S. EBNER
ATLANTIC LEGAL FOUNDATION
1701 PENNSYLVANIA AVE., NW
SUITE 200
WASHINGTON, DC 20006
202-729-6337
LAWRENCE.EBNER@ATLANTICLEGAL.ORG
LAWRENCE S. EBNER
CAPITAL APPELLATE ADVOCACY PLLC
1701 PENNSYLVANIA AVE, NW
SUITE 200
WASHINGTON, DC 20006
202-729-6337
LAWRENCE.EBNER@CAPITALAPPELLATE.C
OM
SARAH MICHELLE HARRIS
WILLIAMS & CONNOLLY LLP
725 TWELFTH STREET, N.W.
WASHINGTON, DC 20005
202-434-5599
SHARRIS@WC.COM

JOHN M. MASSLON II
WASHINGTON LEGAL FOUNDATION
2009 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20036
202-588-0302
JMASSLON@WLF.ORG
MICHAEL PEPSON
AMERICANS FOR PROSPERITY FOUNDATION
1310 N. COURTHOUSE ROAD
SUITE 700
ARLINGTON, VA 22201
571-329-4529
MPEPSON@AFPHQ.ORG
PAMELA B. PETERSEN
AXON ENTERPRISE, INC.
17800 N. 85TH STREET
SCOTTSDALE, AZ 85255
623-326-6016

